              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




Audit Report
Refurbishment of the W80 — Weapon
Type




DOE/IG-0590                                 March 2003
REFURBISHMENT OF THE W80 -- WEAPON TYPE

TABLE OF
CONTENTS



               W80 Refurbishment Project

               Details of Finding ........................................................................1

               Recommendations and Comments.............................................5


               Appendices

               1. Related Reports .....................................................................7

               2. Scope and Methodology ........................................................9

               3. Management Comments......................................................10
W80 REFURBISHMENT PROJECT
Background         Starting in September 1998, Los Alamos National Laboratory (Los
                   Alamos) initiated a project to refurbish the W80. In January 2001, to
                   balance the workload between Lawrence Livermore National
                   Laboratory (Livermore) and Los Alamos, NNSA transferred the
                   responsibility of refurbishing and certifying the W80 nuclear weapon
                   components to Livermore. Sandia National Laboratories (Sandia) was
                   given the responsibility to design specific weapon components and
                   perform the non-nuclear certification, and Los Alamos was to perform
                   the peer review function. NNSA plans to complete the refurbishment
                   of its first production unit by 2006.

                   At the beginning of the W80 refurbishment project, NNSA established
                   a management process to overcome previously identified problems
                   such as missed milestones and increased costs. This process, referred
                   to as 6.X, was designed to control refurbishment activities for existing
                   weapons from start to finish. Based on this process, NNSA developed
                   the W80 NNSA Project Plan (Project Plan) to manage the scope,
                   schedule, and cost for the W80 refurbishment and define the inter-
                   dependencies between the participating laboratories and production
                   plants. The Project Plan milestones provided the foundation for
                   detailed schedules to be developed by the laboratories. We conducted
                   the audit to determine whether NNSA will be able to refurbish the
                   W80 according to the scope, schedule, and cost set forth in its Project
                   Plan.

Scope, Schedule,   The audit disclosed that changes had been made in the scope, schedule,
and Cost           and cost of components; and the tasks scheduled for completion in the
                   Project Plan were not being met. Specifically, scheduled milestones
                   within the Project Plan relating to testing, designing of major
                   components, and renovating support facilities were often cancelled or
                   delayed. Such delays can ultimately increase project cost, as noted in a
                   GAO audit of the W87 where project cost increased by $300 million.

                                                    Testing

                   For example, an ambient hydrodynamic test, conducted to help
                   understand the performance of a primary and validate physics models,
                   was cancelled; and three other hydrodynamic tests were delayed. These
                   tests, the most extensive system tests that can be performed on a
                   weapon, were cancelled or delayed by Livermore because the
                   renovation of the facilities needed to perform the tests was behind
                   schedule and/or over budget. Livermore chose to rely instead on data
                   obtained from a Los Alamos test performed in January 1997, almost
                   four years earlier. The prior test, however, was performed at a different
                   photographic resolution and with different technology.

Page 1                                                                  Details of Finding
         Likewise, certain scheduled system engineering tests were cancelled.
         Such tests assess the ability of the W80 to survive environmental
         conditions such as heat, cold, and vibration. Livermore cancelled these
         tests because the facilities needed in support of these tests were
         unavailable. Instead, Livermore planned to use information from other
         similar tests. However, NNSA documents state that caution should be
         taken because subtle differences may change the test outcomes.
         Livermore was not able to present any analysis to show that the
         substitute tests will meet NNSA's requirements.

                                      Weapons Components

         Several tasks involving the refurbishment of the weapons components
         were delayed. For instance, Sandia delayed a conceptual design for a
         new Weapons Electrical System Housing (Housing) platform by three
         months because the original design would have interfered with a spring
         that Livermore was to install in the weapon. Sandia completed the
         revised conceptual design effort in August 2001 rather than the
         scheduled date of May 2001. This effort, in turn, delayed the Housing's
         prototype design review by over ten months. These postponements
         subsequently impacted refurbishment milestones in other W80
         components including the weapon electrical system subassembly and
         the firing set.

         Further, Sandia delayed eight other scheduled tasks involved in the
         refurbishment of W80 components. One delay could be attributed to
         Sandia's decision to redesign a part for the neutron generator. The
         redesign required the part to go through a re-certification process and
         this caused a delay that was not foreseen in the Project Plan.

                                        Support Facilities

         The renovations of support facilities, needed for refurbishment
         activities, were cancelled or delayed by Livermore. For example, the
         scheduled renovation of two rooms at Livermore's plutonium handling
         facility was cancelled because Livermore underestimated the costs.
         One room would have been used to disassemble war reserve weapons
         and obtain parts for testing, and the second room was to be used for
         disassembly of weapons that were tested with the original war reserve
         plutonium pit. Although Livermore compensated for not renovating the
         first room by arranging to obtain sufficient parts from another NNSA
         site, its weapon-testing program was adversely impacted when it had to
         cancel the system engineering tests on weapons that were to be
         disassembled in the second room.

Page 2                                                         Details of Finding
                         Renovation activities were also cancelled or delayed in two rooms in
                         the HiBay Building. Livermore cancelled the renovation of one room
                         because the cost to seal it to prevent hazardous material release was
                         more than planned. Management stated that this should not impact the
                         W80 schedule but noted that the disassembly process will be more
                         difficult and possibly more time consuming. In addition, the renovated
                         room is still needed for other weapon refurbishment according to
                         Livermore. The second room was to be refurbished by November
                         2001; however, it has been delayed until FY 2003. The rescheduled
                         support facilities were necessary to meet FY 2002 budget constraints
                         but each delayed or cancelled project affected numerous other
                         activities. Many of these changes were not reflected in the Project
                         Plan.

Implementation of        Although both the Life Extension Program Management Plan and the
Established Management   Project Plan were developed at the inception of the development
Controls                 engineering phase of the W80 refurbishment effort, the established
                         scope, schedule, and cost milestones were not met because management
                         controls were not effectively implemented. In 1999, a Departmental
                         Review Committee stated that a multi-laboratory collaborative effort
                         required an experienced individual with authority to direct all aspects of
                         a project. Such an individual has not been granted the authority to
                         direct the W80 refurbishment. In fact, since responsibility for the W80
                         project was transferred to Livermore in January 2001, three different
                         managers have been assigned to direct the project without such
                         authority.

                         We also found that the October 2001 version of the Project Plan still
                         showed a conceptual design milestone completion date of May 2001
                         even though conceptual design was not complete. In fact, 37 percent of
                         Livermore's detailed project schedule dates showed arbitrary
                         placeholder dates instead of actual completion dates. Further, when
                         two detailed projects were cancelled, Livermore did not update the
                         Project Plan and could not determine how much money was saved or
                         reprogrammed. The Project Plan is an important management control
                         tool that must be updated to be effective. It should be continually
                         updated to reflect revisions in the scope, schedule, and cost.

                         In addition, Livermore and Sandia detailed plans and the Project Plan
                         were not fully integrated. The laboratories' detailed plan dates, in many
                         instances, were inconsistent with the Project Plan. Our reconciliation of
                         the Project Plan to the laboratories' detailed plans revealed that the
                         detailed plans did not include 29 Project Plan milestones. For example,
                         the Project Plan listed milestones for performance requirements

Page 3                                                                        Details of Finding
                       reviews, engineering system releases, and the establishment of
                       baselines that were not found in the Sandia or Livermore detailed
                       project plans. In addition, we found 23 instances where detailed project
                       plans included the Project Plan milestones but the completion dates in
                       the detailed plans were set after their corresponding Project Plan
                       milestone dates. For example, the Project Plan required that a first fully
                       functional part be available by April 1, 2003. However, the Sandia
                       detailed plan did not require the same part until November 13, 2003.
                       Project Plan milestones provide the foundation for more detailed project
                       plans at the laboratories. In turn, the detailed plans permit tighter
                       control over each aspect of the project.

                       NNSA also did not require scheduled milestones to be resource
                       loaded – a tool used to gather and appraise required resources. Instead,
                       costs were budgeted and tracked at a high level. The project
                       management software package that NNSA used was, in fact, incapable
                       of resource loading specific tasks. The Management Plan specifies that
                       detailed costs be identified and estimated at the lowest levels of the
                       project. This requirement, along with the Project Plan, is a device used
                       to control costs.

                       Further, NNSA had not instituted a change control process even though
                       one was drafted in August 2001. Thus, the NNSA W80 Project
                       Manager did not know that Livermore cancelled baseline tests that were
                       scheduled in the Project Plan. The new 6.X Process established by
                       NNSA was designed to control a project by tracking and managing
                       scope, schedule, and cost changes by using a change control process.

                       Finally, Los Alamos was to conduct the first peer review in September
                       2002; however, it was delayed until early 2004. In addition, two
                       scheduled annual peer review workshops were not completed. These
                       peer reviews were scheduled to assure that the project was advancing
                       within scope, schedule, and cost.

Certification of the   Since no new weapons are being designed or developed and the existing
Refurbished W80        stockpile will need to be retained well beyond its intended design life,
                       the need to refurbish the existing weapon stockpile in a timely manner
                       is critical. A Los Alamos official stated that although its peer review
                       team has not been able to perform the scheduled peer reviews, the team
                       is aware of the design decisions being made by Livermore and Sandia
                       and has developed significant concerns about the ability of NNSA to
                       certify the refurbished W80 weapon by 2006. Since Los Alamos has
                       not been able to formally assess the progress that is being made,
                       potential problems may go uncorrected and further impact the scope,

Page 4                                                                       Details of Finding
                  schedule, and cost of the program. Additional delays in this process
                  will adversely affect future workload of production plants and the
                  timely replacement of expired components.


RECOMMENDATIONS   We recommend that the Administrator, National Nuclear Security
                  Administration:

                     1. Establish a clear management authority to enforce management
                        controls;

                     2. Establish and maintain a complete and accurate Project Plan
                        which is fully integrated with the laboratories' and production
                        facilities' detailed project plans;

                     3. Ensure that the Project Plan is resource loaded;

                     4. Implement a project change control process; and,

                     5. Ensure that peer reviews are performed as scheduled in the
                        Project Plan.


MANAGEMENT        NNSA agreed with the report and recommendations, stating that all
COMMENTS          recommendations have either been implemented or are being
                  implemented. Specifically, a program manager will be formally
                  designated by name. A complete, accurate, fully integrated and
                  manageable Project Plan is being developed and will be completed as
                  part of the current rebaselining effort with the site-specific detailed
                  project plans consistent with the Project Plan. The project cost for the
                  W80 refurbishment will also be developed at the completion of the
                  rebaselining effort and will be based on each site's cost to conduct the
                  refurbishment activities in their detailed site-specific project plans and
                  the Project Plan. A formal change control process will be implemented
                  at the completion of the rebaselining effort. Finally, peer reviews will
                  be scheduled and conducted in accordance with the guidelines specified
                  by NNSA.

                  However, management stated that the report omitted key facts that
                  affected the report's context. Specifically, management stated that
                  shortly after the W80 NNSA Project Plan was published, Congress
                  halted the majority of program activities from December 2001 to June
                  2002, which precluded completion of the Project Plan updates. The
                  audit was conducted from March 2002 through November 2002, which

Page 5                                              Recommendations and Comments
                   covered program activities during the period of the congressional
                   restriction. In addition, NNSA stated that there were also significant
                   issues regarding Air Force support of the W80 refurbishment program
                   that impacted the management's ability to plan higher-level joint
                   activities and milestones. Management's comments are included in
                   their entirety as Appendix 3.


AUDITOR COMMENTS   Management's proposed actions should satisfy the intent of our
                   recommendations. We recognized and compensated for the
                   congressional funding hold and the delayed Air Force support.
                   Specifically, we reviewed the detailed project plans as of December 1,
                   2001, which was the date the congressional hold went into effect.
                   Therefore, we conducted tests on the project as it stood prior to the
                   congressional hold. For example, the Weapons Components section of
                   the report cites an example that occurred in May and August 2001. In
                   some cases, examples were cited after the congressional hold was
                   released. In these instances, we only used examples that involved
                   circumstances outside of the Congressional hold. For example, some
                   hydrodynamic tests were delayed because a support facility was not
                   completed on time. This facility was delayed due to hazardous material
                   release issues and not by the funding hold. Likewise, we avoided
                   criticizing NNSA for any milestones directly impacted by the lack or
                   delay in Air Force support.




Page 6                                              Recommendations and Comments
Appendix 1


                                             RELATED REPORTS


      Office of Inspector General

  •   National Nuclear Security Administration's Test Readiness Program (DOE/IG-0566, September
      2002). The Department's ability to conduct an underground nuclear test within established
      parameters is a risk. The Department did not have a comprehensive plan or methodology in place to
      address its most significant test-related concerns. Specifically, plans were insufficient to fill key and
      critical positions; validate aging assets; incorporate technology advances; and, update Nuclear
      Explosive Safety Studies. Unless these challenges are addressed, the Department risks losing its
      ability to restart underground testing on a timely basis, should the need arise.

  •   The Department of Energy's Pit Production Project (DOE/IG-0551, April 2002). The Department
      lost the capability to make plutonium pits, a key component of nuclear weapons systems, when its
      Rocky Flats Plant ceased production in 1989. NNSA is currently working to reestablish the
      Department's production capability so that pits removed from weapons stockpile for testing or other
      purposes can be replaced. However, the Department's ability to produce certified plutonium pits is
      at risk because it lacked a robust critical path linking required work to project milestones.

  •   Management of the Stockpile Surveillance Program's Significant Finding Investigations (DOE/IG-
      0535, December 2001). The Directors of the three Department nuclear weapons laboratories
      annually assess and report the condition of the weapons systems for which their laboratories are
      responsible. A critical event in this process is the identification of a weapon defect or malfunction
      during surveillance testing. The Department had not been meeting internally established timeframes
      for initiating and conducting investigations of defects and malfunctions in nuclear weapons.

  •   Stockpile Surveillance Testing (DOE/IG-0528, October 2001). The Department had not met many
      of its flight, laboratory, and component testing milestones. This resulted in a significant testing
      backlog that was projected to continue for several years. When tests are delayed or are not
      completed, the Department lacks critical information on the reliability of the specific weapons
      involved. Without needed test data, the Department's ability to assign valid reliability levels to
      some weapon systems is at risk.

      General Accounting Office

  •   NNSA Nuclear Weapon Reports Need to Be More Detailed and Comprehensive (GAO-02-889R,
      July 2002). NNSA's Nuclear Weapon Acquisition Reports were not comparable to the Department
      of Defense Selected Acquisition Reports that the Congress directed NNSA to use as a model for
      weapon acquisition reporting. As a result, the Congress did not have complete information on the
      costs of each life extension.



Page 7                                                                                     Related Reports
Appendix 1 (continued)


  •   Nuclear Weapons: Improved Management Needed to Implement Stockpile Stewardship Program
      Effectively (GAO-01-48, December 2000). Although the Office of Defense Programs had taken
      steps to address principal challenges facing the Stockpile Stewardship Program, additional
      improvements were needed. Specifically, improvements were needed in order to (1) remedy
      weaknesses in the program's planning process, (2) ensure that required budget information for
      effective cost management was available, (3) correct organizational and leadership deficiencies, and
      (4) develop an effective management process for overseeing the life extension program for nuclear
      weapons.

      Other

  •   FY 2000 Report to Congress of the Panel to Assess the Reliability, Safety and Security of the United
      States Nuclear Stockpile (February 2001). This congressionally established panel found a disturbing
      gap between the nation's declaratory policy of maintenance of a safe and reliable nuclear stockpile
      and the actions taken to support this policy. The report stated that certification is judgmental in
      nature and that the nation needs the strongest possible processes for designing, assessing, certifying,
      and manufacturing our nuclear warheads. Among its recommendations the panel emphasized the
      need for stronger, better-documented interlaboratory peer review, clear identification of costs at the
      weapon level, and clear roles and responsibilities of NNSA staff.




Page 8                                                                                    Related Reports
Appendix 2
SCOPE         The audit was performed from March 2002 to November 2002, at
              NNSA Headquarters, Lawrence Livermore National Laboratory, Sandia
              National Laboratories, Los Alamos National Laboratory, and the Pantex
              Plant.


METHODOLOGY   To accomplish the audit objective, we:

              • Reviewed budget and cost reports, including the W80 Nuclear
                Weapons Acquisition Report;

              • Interviewed personnel from NNSA Headquarters, Albuquerque,
                Livermore, Sandia, Los Alamos, and Pantex Plant;

              • Reviewed the Project Plan, Life Extension Program Management
                Plan, Livermore and Sandia detailed project plans;

              • Reconciled the Project Plan schedule to the Livermore and Sandia
                detailed project plan schedules;

              • Sampled and tested detailed tasks for completion and adherence to
                the Project Plan schedule; and,

              • Examined prior Office of Inspector General, General Accounting
                Office, and Congressional mandated assessments.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. We tested controls
              with respect to NNSA's W80 Life Extension Program. Because our
              review was limited, it would not necessarily have disclosed all internal
              control deficiencies that may have existed at the time of our audit. We
              performed limited tests designed to assess the reliability of computer-
              processed data and found that the Project Plans were not reliable or
              current.

              NNSA waived the exit conference.




Page 9                                                     Scope and Methodology
Appendix 3




Page 10      Management Comments
Appendix 3 (continued)




Page 11                  Management Comments
                                                                              IG Report No.: DOE/IG-0590

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
